No,
Certificate of Compliance
l:19-cv-13950/19-1360
Larry Allen Meitzner
Petitioner
v.
Dana Nessel
Respondent [By substitution)
As required by Supreme Court Rule 33.1(h), I certify that the Petition
for Writ of Certiorari contains 6043 words, excluding the parts of the
Petition that are exempt by Supreme Court Rule 33.1(d).
As required by Supreme Court Rule 33(b), I certify that the Petition for
Writ of Certiorari is produced using Century Schoolbook font using
12 point type for the text and 10 point for the foot notes with 2 pt min.
spacing.

I declare under penalty of perjury that the foregoing is true and correct.
Executed on May 5, 2020
/
/

^

LARRY MEITZNER
Pro se
4209 Klee Rd.
Rogers City, Mi. 49779
(989) 351-8204

RECEIVED
MAY 1 2 2020

